I
S-r-

A

Docket No.

S)@

IN THE
SUPREME COURT OF THE UNITED STATES

Tim Sundy
Petitioner

^ 7?,

t~j 1 :
a

VS.

i:-:

ri

A'v'l

VU-;
l-J

FRIENDSHIP PAVILION ACQUISITION CO. LLC
ARSENAL REAL ESTATE FUND II-IDF, LP, GEORGI
DEPARTMENT OF TRANSPORTATION, Gary PiconeJ
Thomas Ling, Michael Weinstein, and C. Andrew Fuller
Respondents

filed
JAN 0 4 2021

PETITION FOR A WRIT OF CERTIORARI
to the Supreme Court of Georgia from a determination in case S20C1075
TIM SUNDY
227 Sandy Springs Place, Ste. D-465
Sandy Springs, GA 30328
email: dstshall@earthlink.net
Pro se Petitioner
with motion and affidavit accompanying
for permission to proceed in forma pauperis

Questions presented for review

1) Whether the State of Georgia’s use of constructive custody, i.e., constraining the
liberty of a litigant to petition for redress while simultaneously tampering with
the court record(s) in a litigant’s cases, imposes unusual hardship and deprives
the litigant of protections guaranteed by the First. Fourth, and Fourteenth
Amendments of the United States Constitution while also constituting a refusal
by the State of Georgia to provide a Georgia litigant a “plain, speedy, and
efficient” remedy, abrogating OCGA § 9-2-3(b) which states that "For every right
there shall be a remedy," as well as Art. I, Sec. II, Par. I, of the Constitution of
Georgia of 1983 states "Public officers are the trustees and servants of the people
and are at all times amenable to them,"

i

A list of all parties to the proceeding

In compliance with Rule 12.6 Rules of the Supreme Court of the United
States, all parties listed below have an interest in the outcome of the judgment
sought to be reviewed and promoted the judgment via inconsistent due process
and/or Fraud upon the court.
Friendship Pavilion Acquisition Company, LLC; a Delaware corporation
Arsenal Real Estate Fund II-IDF, LP, a Delaware corporation
Georgia Department of Transportation
Gary Picone
Thomas Ling
Michael Weinstein
C. Andrew Fuller

ii

V

Corporate Disclosure Statement
The Petitioner is not a corporation.

iii

List of All Proceedings
Pursuant to Rule 14(b)(iii)- Rules of the Supreme Court of the United States, the
list in State and Federal trial and appellate courts, including proceedings in this
Court, that are directly related to the case and the Judgment sought to be reviewed
in this Court as follows:
Cases in the State Magistrate Court of Hall County Georgia:
Case MV2015150183- Friendship Pavilion Acquisition Company, LLC. v.
Mediterranean Dining Group, affidavit for summons of dispossessory, filed 9 June
2015 and transferred to Superior Court of Hall County (“HCSC”) on 2 July 2015 as
HCSC case 2015CV1366.
Cases in the Superior Court of Hall County Georgia:
Case 2015CV1366- Friendship Pavilion Acquisition Company, LLC. v.
Mediterranean Dining Group, Defendant,

and Tim Sundy and David Sundy,

Intervenor Defendants and Third-party Plaintiffs vs Michael Weinstein, ARSENAL
REAL

ESTATE FUND II-IDF, L.P.; Thomas Ling, Gary Picone, Third-Party

Defendants. Judgment entered December 3, 2016 and December 6, 2016
Case 2016CV0982 -Tim Sundy v. C. Andrew Fuller, et al., a Brown v. Johnson,
251 Ga. 436 (Ga.1983) mandamus action. Judgment entered August 22, 2018.
Case 2017CV0031 -David Sundy v. Charles Baker, et al., a Brown u. Johnson,
251 Ga. 436 (Ga.1983) mandamus action. Judgment entered April 3, 2017.
Case 2017CV1125J Charles Baker v. David Sundy and Tim Sundy. Judgment
entered July to, 2018
Case 2018CV00502 -In re: David Sundy, Still Pending.
iv

Cases in the Georgia Court of Appeals:
Case Number:

A17D0476 (Docket Date: May 31,2017)

Style:

DAVID SUNDY v. MARTHA C. CHRISTIAN, JUDGE
ET AL.

COA Status:

Denied 06/21/2017

Trial Court Case #: 2015CV1366
Case Number:

A17D0476 (Docket Date: May 31,2017)

Style:

DAVID SUNDY v. MARTHA C. CHRISTIAN, JUDGE
ET AL.

COA Status:

Granted 06/21/2017

Trial Court Case #: 2017CV31A
Case Number:

A17D0525 (Docket Date: June 19,2017)

Style:

DAVID SUNDY ET AL. v. FRIENDSHIP PAVILION
ACQUISITION COMPANY, LLC ET AL.

COA Status:

Dismissed 07/17/20171

Trial Court Case #: 2015CV1366
Case Number:

A18A0170 (Docket Date: August 14,2017)

Style:

DAVID SUNDY v. MARTHA CHRISTIAN ET AL.

COA Status:

Lower Court Affirmed 03/28/2018

Trial Court Case #: 2017CV000031
Case Number:

A18A0290 (Docket Date: September 13,2017)

Style:

TIM SUNDY ET AL. v. FRIENDSHIP PAVILION
ACQUISITION COMPANY, LLC ET AL.

COA Status:

Dismissed 10/03/2017

Trial Court Case #: 2015CV1366
Case Number:

A18D0215 (Docket Date: November 29,2017)

Style:

TIM SUNDY ET AL. v. FRIENDSHIP PAVILION
ACQUISITION COMPANY, LLC ET AL.
v

COA Status:

Dismissed 12/28/2017

Trial Court Case #: 2015CV1366
Case Number:

A19D0108 (Docket Date: September 21,2018)

Style:

TIM
SUNDY
v.
FRIENDSHIP
ACQUISITION CO., ET AL.

COA Status:

Denied 10/19/20181

PAVILION

Trial Court Case #: 2016CV982
Case Number:

A19D0345 (Docket Date: February 15,2019)

Style:

TIM
SUNDY
v.
FRIENDSHIP
ACQUISITION COMPANY, LLC

COA Status:

Dismissed 03/15/2019

PAVILION

Trial Court Case #: 2015CV1366
Case Number:

A19E0011 (Docket Date: September 19,2018)

Style:

DAVID SUNDY ET AL. v. CHARLES BAKER ET AL.

COA Status:

Denied 09/19/2018

Trial Court Case #: 2017CV1125
Case Number:

A19E0011 (Docket Date: September 19,2018)

Style:

DAVID SUNDY ET AL. v. CHARLES BAKER ET AL.

COA Status:

Denied 09/19/2018

Trial Court Case #: 2016CV982
Case Number:

A19E0011 (Docket Date: September 19,2018)

Style:

DAVID SUNDY ET AL. v. CHARLES BAKER ET AL.

COA Status:

Denied 09/19/2018

Trial Court Case #: 2015CV1366
Case Number:

A19E0011 (Docket Date: September 19,2018)

Style:

DAVID SUNDY ET AL. v. CHARLES BAKER ET AL.
vi

CO A Status:

Denied 09/19/2018

Trial Court Case # 2018CV502
Case Number:

A20D0016 (Docket Date: July 29,2019)

Style:

FRIENDSHIP
TIM
SUNDY
v.
ACQUISITIONS CO., LLC et al.

COA Status:

Dismissed 08/27/2019

PAVILION

Trial Court Case #: 2015CV1366
Case Number:

A20E0037 (Docket Date: March 13,2020)

Style:

TIM
SUNDY
FRIENDSHIP
v.
ACQUISITIONS LLC et al.

COA Status:

Denied 03/13/2020

PAVTLLION

Trial Court Case # 2015CV1366
Case Number:

A19D0398 (Docket Date: June 10,2020)

Style:

TIM
SUNDY
v.
FRIENDSHIP
ACQUISITIONS LLC et al.

COA Status:

Denied 07/07/2020

PAVILLION

Trial Court Case # 2015CV1366
Cases in the Supreme Court of Georgia:
Case Number:

S17Q1606 (Docket Date: May 10, 2017)

Style:

SUNDY v. BAKER et al.

GSUP Status:

Dismissed 05/30/2017 Reconsid. Denied: 06/30/2017

Trial Court Case # 2015CV1366
Case Number:

S18C0377 (Docket Date: May 10, 2017)

Style:

SUNDY et
al v.
FRIENDSHIP
ACQUISITION LLC et al.

GSUP Status:

Denied 05/30/2017

Trial Court Case # 2015CV1366
vii

PAVILLION

Case Number:

S18C0475 (Docket Date: November 13, 2017)

Style:

SUNDY
et
al v.
FRIENDSHIP
ACQUISITION LLC et al.
Denied 05/07/2018

GSUP Status:

PAVILLION

Trial Court Case # 2015CV1366

Case Number:

S18C0710 (Docket Date: January 19, 2018)

Style:

FRIENDSHIP
et
al v.
SUNDY
ACQUISITION LLC et al.
Denied 05/07/2018

GSUP Status:

PAVILLION

Trial Court Case # 2015CV1366

Case Number:

S18C0395 (Docket Date: November 8, 2018)

Style:

SUNDY et
al v.
FRIENDSHIP
PAVILLION
ACQUISITION LLC et al.
Denied 06/03/2019; Recons. Denied 07/01/2019

GSUP Status:

Trial Court Case # 2016CV982

Case Number:

S19D0602 (Docket Date: January 2, 2019)

Style:

SUNDY
et
al v.
FRIENDSHIP
ACQUISITION LLC et al.
Transferred to COA 01/31/3019

GSUP Status:

PAVILLION

Trial Court Case # 2015CV1366

Case Number:

S19D0838 (Docket Date: February 25, 2019)

Style:

FRIENDSHIP
SUNDY
et
al v.
ACQUISITION LLC et al.
Transferred to COA 03/20/2019

GSUP Status:

viii

PAVILLION

Trial Court Case # 2015CV1366

Case Number:

S18C0395 (Docket Date: November 8, 2018)

Style:

SUNDY et
al v.
FRIENDSHIP
PAVILLION
ACQUISITION LLC et al.
Denied 06/03/2019; Recons. Denied 07/01/2019

GSUP Status:

Trial Court Case # 2016CV982

Case Number:

S18C0943 (Docket Date: March 20, 2019)

Style:

FRIENDSHIP
SUNDY et
al v.
ACQUISITION LLC et al.
Denied 11/04/2019

GSUP Status:

PAVILLION

Trial Court Case # 2015CV1366
Case Number:

S19Q1351 (Docket Date: June 13, 2019)

Style:

SUNDY v. CHRISTIAN et al.

GSUP Status:

Dismissed 08/05/2019; Recons. Denied 08/20/2019

Trial Court Case #
Case Number:

S20M1044 (Docket Date: March 25, 2020)

Style:

FRIENDSHIP
SUNDY et
al v.
ACQUISITION LLC et al.
Denied 03/31/2020

GSUP Status:

PAVILLION

Trial Court Case #
Case Number:

S20C1075 (Docket Date: April 2, 2020)

Style:

FRIENDSHIP
SUNDY et
al v.
ACQUISITION LLC et al.

ix

PAVILLION

GSUP Status:

Denied 10/05/2020

Trial Court Case # 2015CV1366
Cases in the U.S. District Court - Northern District of Georgia:
Case Number:

2:15-cv-00149-RWS (Docket Date: July 10,2015)

Style:

FRIENDSHIP PAVILLION ACQUISITION LLC v.
MEDITERRANEAN DINING et al.
Remanded to Hall County Superior Court 12/04/2015

USDC Status:

Trial Court Case # 2015CV1366

Case Number:

2:16-cv-00123-WCO (Docket Date: June 14, 2016)

Style:

SUNDY v. FRIENDSHIP PAVILLION ACQUISITION
LLC et al.
Remanded to Hall County Superior Court 08/31/2016

USDC Status:

Trial Court Case # 2016CV982

Case Number:

2:18-CV-0112-SCJ (Docket Date: July 10, 2018)

Style:

SUNDY v. FRIENDSHIP PAVILLION ACQUISITION
LLC et al.
Complaint Dismissed 03/12/2019

USDC Status:
Trial Court Case #

Cases in the 11th Circuit USCA
Case Number:

19-10183 (Docket Date: January 16, 2019)

Style:

SUNDY v. FRIENDSHIP PAVILLION ACQUISITION
LLC et al.
Sundy’s mandamus petition to restore missing
documents to 2:18-CV-0112-SCJ

x

USDC Status:

Denied (most documents - but not all -- restored by SCJ
prior to USCA ruling)
Trial Court Case # 2:18-CV-0112-SCJ

Case Number:

19-10445 (Docket Date: April 11, 2019)

Style:

SUNDY v. FRIENDSHIP PAVILLION ACQUISITION
LLC et al.
Sundy’s petition requesting injunction until missing
documents are restored to 2:18-cv-0112-SCJ
Denied

USDC Status:

Trial Court Case # 2:18-CV-0112-SCJ

Case Number:

19-11391 (Docket Date: February 4, 2019)

Style:

SUNDY v. FRIENDSHIP PAVILLION ACQUISITION
LLC et al.
Dismissed. 03/13/2020

USDC Status:

Trial Court Case # 2:18-CV-0112-SCJ

Cases in the Supreme Court of the United States:
Case 19-7600-Title: Tim Sundy, Petitioner v. Friendship Pavilion Acquisition
Company, LLC, et al.,... for writ of certiorari Petition DENIED on April 6,
2020.
Case 19-6694-Tim Sundy, Petitioner v. Martha C. Christian, Judge, et al....for writ
of certiorari Petition DENIED on January 27 2020, Rehearing DENIED on
March 23 2020.

xi

Case 19-6821-Tim Sundy, Petitioner v. Friendship Pavilion Acquisition Co., et
al....for writ of certiorari Petition DENIED on Feb 24 2020, Rehearing
DENIED on March 23 2020.
Case 19-5506-Tim Sundy, Petitioner v. Friendship Pavilion Acquisition Company,
LLC, et al

for writ of certiorari Petition DENIED on Feb 24

2020

Rehearing DENIED on March 23 2020.
Case 19-8492- In re: Tim Sundy, DISMISSED on October 5, 2020.
Case 19-8491- In re: Tim Sundy, DISMISSED on October 5, 2020.
Case 20-5401- Tim Sundy, Petitioner v. Friendship Pavilion Acquisition Company,
LLC, et al.

for writ of certiorari to the 11th Circuit Court of Appeals Petition

DISMISSED on October 13, 2020.
Case 20-5559 Tim Sundy, Petitioner v. Friendship Pavilion Acquisition Company,
LLC, et al

for writ of certiorari Petition DISMISSED on November 2, 2020.

xii

Table of contents
QUESTION PRESENTED...............................

i

PARTIES TO THE PROCEEDING BELOW

ii

CORPORATE DISCLOSURE STATEMENT

iii

LIST OF ALL PROCEEDINGS

iv

TABLE OF CONTENTS

xiii

TABLE OF AUTHORITIES

xiv

PETITON FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW.

1

STATEMENT OF JURISDICTION

1

RELEVANT CONSTITUTIONAL AND STATUTORY PROVISIONS

2

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE PETITION

5
13

CONCLUSION
Appendixes
Georgia Supreme Court October 5, 2020-ORDER in S20C1075

A001

Georgia Court of Appeals March 13, 2020-ORDER in A20E0037

A003

xiii

Table of cited authorities
Cases
Bertulli v. Independent Ass'n of Continental Pilots, 242 F.3d 290, 295
(5th Cir. 2001)

14

Bill Johnson’s Restaurants, Inc . v. N.L.R.B., 461 U.S. 731, 741 (1983)

2

Board of Regents v. Roth, 408 U.S. 564, 92 S.Ct. 2701, 2708-09, 33 L.Ed
2d 548 (1972)

6

Bounds v. Smith, 430 U.S. 817, 97 S.Ct. 1495, 52 L.Ed.2d 72 (1977)

7

Carey v. Piphus, 435 U.S. 247. 266, 98 S.Ct. 1042. 55 L,Ed.2d 252 (1978)
Chambers v. Baltimore Ohio Railroad, 207 U.S. 142, 28 S.Ct. 34, 52 L.Ed (1907)
Christopher v. Harbury, 536 U.S. 403, 415 (2002)

14
7
10

Collier v. State, 834 S.E.2d 769 (Ga. 2019)

4

Crews v. Petrosky, 509 F. Supp.1199, 1204 n. 10 (W.D.Pa. 1981)

7

Davis v. Phoebe Putney Health Systems, 280 Ga. App. 505, 506-507 (1)
(634 SE2d 452) (2006)

5

Delew v. Wagner, 143 F.3d 1219, 1222 (9th Cir. 1998)

9

Dinwiddie v. Brown, 230 F.2d 465, 469 (5th Cir.)

9

Elrod v. Burns, 427 U.S. 347; 6 S. Ct 2673; 49 L. ed. 2d (1976)

9

Goss v. Lopez, 419 U.S. 565, 95 S.Ct. 729, 735-36, 42 L.Ed.2d 725 (1975)

6

In re Four Seasons Securities Laws Litigation (10th Cir.1974),502 F.2d 834,
cert, denied (1974) (1975)
Johnson v. Avery, 393 U.S. 483, 89 S.Ct. 747, 21 L.Ed.2d 718 (1969)

12

12, 16

Johnson v. Mayor c. of Carrollton, 249 Ga. 173, 174 (Ga. 1982)

12

Jourdan v. Jabe, 951 F.2d 108, 110 (6th Cir. 1991)

11

xiv

Logan v. Zimmerman Brush Co., 455 U.S. 422, 102 S.Ct. 1148, 1155,
71 L.Ed.2d 265 (1982)
McCray v. State of Maryland, 456 F.2d 1, 6 (4th Cir. 1972)

6

7,11

Mincey u. Head, 206 F.3d 1106, 1125 (11th Cir. 2000)

15

Miranda v. Arizona, 384 U.S. 436, 490 (1966)

10

Mohawk Indus., Inc. v. Carpenter, 558 U.S. 100, 109 (2009)

13

Roberts v. First Ga. Community Bank, 335 Ga. App. 228, 230 (1)
(779 SE2d 113) (2015)

5

Rudolph v. Locke, 594 F.2d 1076, 1078 (5th Cir. 1979)

7

Sigafus v. Brown, 416 F.2d 105 (7th Cir. 1969)

7

Southern Christian Leadership Conference v. Sessions, 56 F.3d 1281
(11th Cir. 1995)

15

U.S. v. Mancilla, 226 Fed. Appx. 945, 946 (11th Cir. 2007)

8

United States v Hylton, 710 F2dll06, 1111' (5th Cir. 1983)

2

V.T.A., Inc. v. Airco, Inc. (10th Cir. 1979), 597 F.2d 220

12

Wessel v. City of Albuquerque, 299 F.3d 1186, 1193 (10th Cir. 2002)

14

Withrow v. Larkin, 421 U.S. 35, 47 (1975) (quoting In re Murchison,
349 U.S. 133, 136 (1955)

13

Wolff v. McDonnell, 418 U.S. 539, 94 S.Ct. 2963, 41 L.Ed.2d 935 (1974)

16

Statutes
18 U.S. C. 1512(c)(l)(2)

2

18 U.S. C. 1512(f)(1)

2

28 U.S.C. § 1257(a)

1

42 U.S.C. § 1983

7, 11

XV

OCGA § 9-2-3(b)

1

OCGA § 9-6-22

14

OCGA § 9-11-11.1

6

OCGA § 9-11-1

8

OCGA § 16-10-20

2

Constitutional Provisions
Constitution of the State of Georgia Art. I, Sec. I, Par. XII

2

Constitution of the State of Georgia Art. I, Sec. II, Par. I

i

Constitution of the State of Georgia Art. 1 Sec, 1. Par.II

2

Constitution of the United States, First Amendment

i, 1, 2, 9

Constitution of the United States, Fourth Amendment

passim

Constitution of the United States, Fifth Amendment

3, 9, 10

Constitution of the United States, Fourteenth Amendment

passim, 10

Rules
Rule 13.1 Rules of the Supreme Court of the United States

1

Rule 14 Rules of the Supreme Court of the United States

1

Rule 30.1: Rules of the Supreme Court of the United States

1

xvi

PETITON FOR A WRIT OF CERTIORARI
Pro se Petitioner Tim Sundy is in constructive custody of the State of Georgia,
denied equal protection and restrained of liberty of having a complete record in an
official proceeding. For five years, court officers have made it a practice to withhold
records and documents from every official proceeding in which Sundy is a party, as
well as altering or concealing documents with intent to impair the document’s
availability for use in an official proceeding. Petitioner Sundy, unwilling to forfeit
or waive his rights to a complete record under the First and Fourteenth
Amendments of the U.S. Constitution, and refusing to acquiesce to an incomplete
record in the courts below, respectfully petitions for a writ of certiorari to review the
decision of the Supreme Court of Georgia in S20C1075. Insofar as applicable, the
form of a petition for a writ of certiorari as prescribed by this Court’s Rule 14 is
followed.
I. OPINIONS BELOW
The Supreme Court of Georgia’s opinion in case S20C1075 is unpublished.
Sundy’s Petition was denied on 5 October 2020. See Appendix at A001.

The Georgia

Court of Appeals ruling in case A20E0037 is at A003.
II. STATEMENT OF JURISDICTION
This Court has appellate jurisdiction over the Supreme Court of Georgia’s
denial of petition for certiorari on 5 October 2020. This Petition in the United States
Supreme Court, being put in U.S. priority mail on 4 January 2021, is timely under
Rule 13.1 and Rule 30.1: Rules of the Supreme Court of the United States. The
jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).
1

III. RELEVANT CONSTITUTIONAL AND STATUTORY PROVISIONS
Predicated on the First Amendment of the United States Constitution, as
well as Art. I, Sec. I, Par. XII of the Georgia Constitution, Petitioner Sundy has a
constitutional right of access to the court to petition the government for redress of
grievances.

“The right of access to the court is but one aspect of the right of

petition.” Bill Johnson’s Restaurants, Inc . u. N.L.R.B., 461 U.S. 731, 741 (1983);
“Filing a complaint in court is a form of petitioning activity.” United States v Hylton,
710 F2dll06, 1111' (5th Cir. 1983). Petitioner Sundy also has a Fourth Amendment
right under the United States Constitution to be secure in his papers. Rights and
remedies are inextricably intertwined. The Fourteenth Amendment to the United
States Constitution guarantees that Petitioner Sundy is immune from criminal
activity. The purview of the Fourteenth Amendment to the United States
Constitution is in agreement with the Constitution of the State of Georgia Art. 1
Sec. 1. Par.2: Protection to person and property; equal protection.

Protection to

person and property is the paramount duty of government and shall be impartial
and complete. No person shall be denied the equal protection of the laws.
Section 1512(c)(l)(2) of Title 18, added to the United States Code as part of
the Sarbanes-Oxley Act of 2002, documents the criminal nature of tampering with a
court record including “(c) Whoever corruptly- (1) alters, destroys, mutilates, or
conceals a record, document, or other object, or attempts to do so, with the intent to
impair the object's integrity or availability for use in an official proceeding...”
Section 1512(f)(1) of Title 18 states that an official proceeding need not be pending
or about to be instituted at the time of the offense. OCGA §16-10-20 documents the
2

criminal nature of fraudulent entries, making false representations, and concealing
a material fact by any trick, scheme or device in any matter within the jurisdiction
of state government.
V. STATEMENT OF THE CASE
Since 2015, Petitioner Sundy has been subject to court officers tampering with
the court record to criminally interfere with Sundy’s access to the court, depriving
Sundy of his right to defend himself against civil liability, and his right to pursue
meritorious claims against billion-dollar corporate entity Friendship Pavilion
Acquisition Company Inc. LLC (“Friendship”) in an in rem proceeding.

Because

court officers are tampering with the records in Sundy’s cases, the court records are
not complete and do not reflect the proof of all orders, notices, objections, etc. to the
court, causing Petitioner Sundy to be procedurally deficient or falsely exposing
Petitioner to sanctions. Judges and clerks of court in Georgia courts in or proximate
to Atlanta have tampered with the records of civil actions involving Sundy to deprive
Sundy of rights under the First, Fourth, Fifth, and Fourteenth Amendments of the
United States Constitution and unjustifiably obstruct Sundy’s access to the courts..
Sundy has filed numerous legal or extraordinary actions to have his court
record(s) restored to whole, see the “List of All Proceedings.”

By judicial notice,

the same day the Sundys initiated civil action 2:18-CV-0112 in U.S. District Court
Northern District of Georgia - Gainesville Division (“USDC”), disqualified Hall
County Superior Court (“HCSC”) Judge C. Andrew Fuller sua sponte issued a
written, open-ended injunctive filing order whereby, as unlawfully enforced by the

3

Clerk of Court and Hall County Sheriffs Office, Sundy was refused physical access to
the office of the clerk of court and intimidated by threat of arrest.
The retaliatory, unjustified and unbounded injunctive order, although issued
only in HSCS 2016CV0982 without notice to Sundy and with no substantive findings
by any court that Sundy’s pleadings are frivolous or in bad faith, has been unlawfully
applied to the entire Hall County Superior Court system though not filed in any
other case, with the Real Estate Division of the HCSC Clerk’s Office even refusing
to file Sundy’s papers germane to USDC 2:18-CV-0112. The unbounded injunction
infringes on Sundy’s right of access to the courts and has been used by HCSC to
repeat an ongoing pattern of material falsity, i.e., concealing the material fact of
Sundy’s documents/pleadings while depriving Sundy of rights under color of law.
To prevail on appeal, a defendant “must be able to show reversible error, and
he must do so on the existing record.” Collier v. State, 834 S.E.2d 769 (Ga. 2019). The
existing record is incomplete in 2015CV1366 HCSC as well as every other case in
which Sundy is a party, and the filing injunction has been used by HCSC court
officers to strategically deprive Sundy of access to the courts while ensuring that pro
se Sundy is legally disadvantaged. Because the injunctive filing order was filed by the
Court into a closed case, Sundy can neither appeal it nor provide it as documentary
evidence of the court’s denial of constitutional rights of access, equal protection and
due process in open cases. Despite Sundy’s every attempt to remedy the incomplete
record(s), Georgia’s appellate courts have refused to make available a means to
remedy the deprivation. Instead, the Clerk of Georgia’s Supreme Court has even gone
so far as to fabricate a false and fictitious motion for sanctions on the record.
4

The systematic pattern and practice employed by court officers to deprive pro
se Sundy of access to the court is only consistent in its discrimination. Pro se Sundy
never knows what qualifies him to have his papers docketed because there is no legal
standard uniformly applied to Sundy’s papers, and the pretext used by the court is
different each time.

The facts suggest that the docketing of Sundy’s papers has

nothing to do with an objective determination of whether ,they should be filed in an
existing case. Instead, the actual prejudice of the courts is at issue, in violation of
Sundy’s civil rights, and the need of the court to “sanitize” the record so that Sundy
cannot prevail on appeal.
Sundy's refusal to acquiesce to court officers’ systematic pattern of bias,
tyrannical partiality, and violations of Sundy's rights of equal protection and full
access to the court has provoked the angst of court officers despite the fact that Sundy
is simply heeding the Court’s own instruction to litigants:
"[N]o matter how erroneous a ruling of a trial court might be, a litigant
cannot submit to a ruling or acquiesce in the holding, and then complain
of the same on appeal. He must stand his ground. Acquiescence deprives
him of the right to complain further." (Footnote omitted.) Roberts v.
First Ga. Community Bank, 335 Ga. App. 228, 230 (1) (779 SE2d 113)
(2015). See also Davis v. Phoebe Fkitney Health Systems, 280 Ga. App.
505, 506-507 (1) (634 SE2d 452) (2006) ("A party cannot participate and
acquiesce in a trial court's procedure and then complain of it.")
VII. REASONS FOR GRANTING THE PETITION
Under the U.S. Constitution, the right of access to the courts is guaranteed
and protected from unlawful interference and deprivations by the state. Georgia’s
lower courts and appellate courts, by failing to comply with the local rules of the
courts in order to deny Sundy due process, while also falsifying Sundy’s court

5

record(s) in a manner to abrogate Sundy’s legally protected private substantive and
procedural interests guaranteed by the statutes and constitution of the United States
and the State of Georgia, have placed Sundy in constructive custody.

The Georgia

Supreme Court has stated that: “Habeas corpus relief is available when the
petitioner is in physical custody, and when there are “significant restraints on the
petitioner’s liberty other than physical custody.”” Farris v. Slaton, 262 Ga. 713, 713
(1993) quoting Hardison v. Martin, 254 Ga. 719 (1985).
The principal motivating factor appears to be to cover up the malfeasance and
misfeasance of court officers while sabotaging pro se Sundy’s pursuit of redress of
constitutional torts and other violations of law. The Courts have placed Sundy in
constructive custody by denying pro se Sundy a complete court record and his right of
access to the courts, violating Sundy’s constitutional rights under the First, Fourth
and Fourteenth Amendments. Sundy’s case presents issues of importance beyond the
particular facts and parties involved.
Under O.C.G.A. § 9-11-11.1, Sundy has a property interest in a complete court
record, with the Georgia Legislature declaring that the valid exercise of the
constitutional rights of petition and freedom of speech should not be chilled through
abuse of the judicial process.

This Court has long held that "[t]he hallmark of

property...is an individual entitlement grounded in state law, which cannot be
removed except 'for cause.'" Logan v. Zimmerman Brush Co., 455 U.S. 422, 102 S.Ct.
1148, 1155, 71 L.Ed.2d 265 (1982). See also Goss u. Lopez, 419 U.S. 565, 95 S.Ct. 729,
735-36, 42 L.Ed.2d 725 (1975); Board of Regents v. Roth, 408 U.S. 564, 92 S.Ct. 2701,
2708-09, 33 L.Ed.2d 548 (1972).
6

“A mere formal right of access to the courts does not pass constitutional
muster.” Courts have required that access be "adequate, effective, and meaningful."
Bounds v. Smith, 430 U.S. 817, 97 S.Ct. 1495, 52 L.Ed.2d 72 (1977); see also Rudolph
u. Locke, 594 F.2d 1076, 1078 (5th Cir. 1979). Interference with the right of access to
the courts gives rise to a claim for relief under 42 U.S.C. § 1983. Sigafus v. Brown,
416 F.2d 105 (7th Cir. 1969) (destruction by jail guards of legal papers necessary for
appeal supports claim for damages under § 1983); McCray v. State of Maryland, 456
F.2d 1, 6 (4th Cir. 1972) ("Of what avail is it to the individual to arm him with a
panoply of constitutional rights if, when he seeks to vindicate them, the court-room
can be hermetically sealed against him by a functionary who, by refusal or neglect,
impedes the filing of his papers?"); Crews v. Petrosky, 509 F. Supp.1199, 1204 n. 10
(W.D.Pa. 1981). ("An allegation that a clerk of state court has negligently delayed the
filing of a petition for appeal, and that the delay has interfered with an individual's
right of access to the courts, may state a cause of action under 42 U.S.C. § 1983.").
The right to sue and defend in the courts is the alternative of force. In
an organized society it is the right conservative of all other rights, and
lies at the foundation of orderly government. It is one of the highest and
most essential privileges of citizenship, and must be allowed by each
state to the citizens of all other states to the precise extent that it is
allowed to its own citizens. Equality of treatment in this respect is not
left to depend upon comity between the states, but is granted and
protected by the Federal Constitution. Chambers v. Baltimore Ohio
Railroad, 207 U.S. 142, 28 S.Ct. 34, 52 L.Ed (1907).
Court officers of Georgia’s Hall County Superior Court (“HCSC”), the Georgia
Court of Appeals (“GCOA”), the Supreme Court of Georgia (“GASUP”), and the U.S.
District Court of the Northern District of Georgia (“USDC”) have abused the judicial
process by withholding Sundy’s documents from the court record, and/or tampering
7

with Sundy’s documents in the court record, and/or creating false documents in the
record for the purpose of creating a record that is incomplete, misleading, false, and
which materially misrepresents facts in a way to defeat Sundy’s every claim and deny
Sundy due process and equal protection.
A complete record functions to ensure procedural due process on appeal.
U.S. v. Mancilla, 226 Fed. Appx. 945, 946 (11th Cir. 2007)
Since Sundy became an intervening defendant in civil action HCSC
2015CV1366 in 2015, pro se Sundy has rationally and intelligently documented a
systematic pattern of legal abuse by court officers who refuse to be held accountable
to the Constitutions and laws of the United States and the State of Georgia. The
Georgia courts have refused pro se Sundy any “plain, speedy, and efficient” remedy to
court officers’ tampering with the record while placing Sundy in constructive custody
by restraining Sundy’s liberty to defend himself against civil liability, and depriving
Sundy of any declaration that Sundy is immune from criminal activity as guaranteed
by the constitutions of both the State of Georgia and the United States. Court officers
have also acted to sabotage the “just, speedy, and inexpensive determination” of a
civil action in violation of OCGA § 9-11-1, forcing pro se Sundy to expend thousands
of dollars in court fees in pursuit of a complete court record and a remedy against
court officers tampering with the court records.. There is still no remedy.
Sundy has repeatedly substantiated the facts of the tampering as well as the
procedural violations by judges and clerks and has provided citation to authority.
Georgia appellate courts, as well as USDC, have responded in a manner to sabotage
the normal proceedings of Sundy’s cases, with the Clerk of Georgia’s Supreme Court

8

going so far as to fabricate a false and fictitious motion for sanctions on the record in
one case and transforming an application for discretionary appeal into a fictitious
petition for writ of certiorari in another case. Sundy has been denied any adequate
state remedy by Georgia’s appellate courts.

Sundy has been deprived of his

substantive right of access to the courts and remains under present restraint. Sundy
has been deprived of freedoms and rights under the First, Fifth and Fourteenth
Amendments.
“Loss of First Amendment freedoms, for even minimal periods of time,
unquestionably constitutes irreparable injury.” Elrod v. Burns, 427 U.S.
347; 6 S. Ct 2673; 49 L. ed. 2d (1976);
The judiciary in Georgia has shown no interest in the illegal actions of court
clerks and judges, instead it has acted to undermine Sundy’s claims.
"if state officers conspire ... in such a way as to defeat or prejudice a
litigant's rights in state court, that would amount to a denial of equal
protection of the laws by persons acting under color of state law."
Dinwiddle v. Brown, 230 F.2d 465, 469 (5th Cir.), cert, denied, 351 U.S.
971, 76 S.Ct. 1041, 100 L.Ed. 1490 (1956).
Sundy has been astonished by the lengths court officers will go to in order to
silence pro se litigants who question a court’s denial of equal protection and abuse of
power. Sundy has suffered actual prejudice and irreparable injury as the result of
court officers’ repeated actions of removing and/or withholding Sundy’s pleadings
from the court records, court officers’ actual falsification of the record, as well as court
officers’ statutory violations, misstatements and misleading statements in lower
court documents to commit fraud upon the court.
Restricting access to the courts is a serious matter. “[T]he right of access to the
courts is a fundamental right protected by the Constitution.” Delew v. Wagner, 143
9

F.3d 1219, 1222 (9th Cir.1998). This Court has placed the court access right in the
Privileges and Immunities clause, the First Amendment petition clause, the Fifth
Amendment due process clause, and the Fourteenth Amendment equal protection
clause.
The actions of Georgia courts have impinged upon Sundy’s fundamental right
of access protected by the Constitution.
" Whether an access claim turns on a litigating opportunity yet to be
gained or an opportunity already lost, the very point of recognizing any
access claim is to provide some effective vindication for a separate and
distinct right to seek judicial relief for some wrong ....[Mjeaningful
access to the courts is a right of constitutional significance." Christopher
v. Harbury, 536 U.S. 403, 415 (2002))
Despite the obvious futility of appealing upon an incomplete record, pro se
Sundy stands his ground and avails himself of the appellate process in order to
correct error, pursue valid legal claims and clearly justiciable issues of law or fact.
Pro se Sundy has supported his claims with factual assertions as well as cogent legal
arguments, and citation to relevant legal authorities which other courts have already
accepted. But the incomplete court records, and the appellate courts’ refusal to hold
court officers culpable for statutory violations, ensures that Sundy remains in the
custody of court officers, denied full access to the courts and deprived of the ability to
fully present meritorious claims..
Where rights secured by the Constitution are involved, there can be no
rule making or legislation which would abrogate them.” Miranda v.
Arizona, 384 U.S. 436, 490 (1966)
Georgia appellate courts have consistently demonstrated over the past five
years that pro se Sundy will not be afforded enforcement of his constitutional rights

10

under the First, Fourth, and Fourteenth Amendments, and that the pattern and
practice of Atlanta-area courts maintaining court records with substantial and
significant omissions and material falsities is not a matter of public concern in
Georgia.

This has been Sundy’s experience since the day he obtained partial

disclosure of Respondent Friendship Pavilion Acquisition Company’s scheme of
prevention of performance, RICO activity, and false affidavit filed in a government
entity stating that Friendship had no tenants despite having signed a lease with
Sundy’s family-owned company almost two months prior.
“Of what avail is it to the individual to arm him with a vesture of
constitutional rights if, when he seeks to vindicate them, the courtroom
door can be hermetically sealed against him by a functionary who, by
refusal or neglect, impedes the filing of his papers?” McCray v. State of
Maryland, 456 F.2d 1, 6 (4th Cir. 1972)
Litigants proceeding pro se are already at a disadvantage in the unfamiliar
world of law because they lack the specialized training of attorneys. Jourdan v. Jabe,
951 F.2d 108, 110 (6th Cir. 1991). When Sundy’s papers and documents supporting
material facts are removed and/or hidden from the record, so that Sundy is
procedurally and/or substantively disadvantaged in the defense or prosecution of a
cause of action, the disadvantage is elevated to a deprivation of rights under color of
law. 42 U.S.C. § 1983.
To have a “plain, speedy and efficient” remedy it is conclusive that a litigant
must have a complete record. The relief sought by Sundy from this Court is not
available in any other court in the state of Georgia.
Sundy, in custody, is without full access to the courts because he is deprived of
presenting all his matters concerning violations of fundamental constitutional rights as
11

the result of an incomplete record. Even though the U.S, Supreme Court may have
ruled many times that access to the courts is founded on Due Process and the U.S.
Supreme Court declares “no person will be denied the opportunity to present to the
judiciary allegations,” yet Georgia courts have applied this to mean “no person except
pro se SUNDY.”
“The right of access to the courts, upon which Avery [Johnson v. Avery, 393
U.S. 483, 89 S.Ct. 747, 21 L.Ed.2d 718 (1969)] was premised, is founded in
the Due Process Clause and assures that no person will be denied the
opportunity to present to the judiciary allegations concerning violations of
fundamental constitutional rights.” Wolff v. McDonnell, 418 U.S. 539, 94
S.Ct. 2963, 41 L.Ed.2d 935 (1974)
Trial court officers have colluded to willfully falsify, destroy, remove, conceal
and alter Sundy’s pleadings as well as other parts of the court records so that the
courts will render void orders and decisions. A void judgment is generally defined as
one in which the rendering court lacked subject matter jurisdiction over the dispute
or jurisdiction over the parties, or acted in a manner inconsistent with due process
of law or otherwise acted unconstitutionally in entering judgment. See V.T.A., Inc.
v. Airco, Inc. (10th Cir. 1979), 597 F.2d 220; In re Four Seasons Securities Laws
Litigation (10th Cir. 1974), 502 F.2d 834, cert, denied (1974), 419 U.S. 1034, 42
L.Ed.2d 309, 95 S.Ct. 516.
“Consistent with federal authority, we now hold that a judgment is void
if the court which rendered it acted in a manner materially inconsistent
with due process.” .Johnson v. Mayor c. of Carrollton, 249 Ga. 173, 174
(Ga. 1982)
HCSC Clerk Baker has previously certified a record on appeal as true and
complete while knowing the record was incomplete and therefore false. The Georgia
Supreme Court and the Georgia Court of Appeals have tampered with Sundy’s
12

appeals by falsifying docketing dates, re-docketing documents a second time with a
new filing date to create fake motions, creating a fake petition for certiorari from a
discretionary application for appeal, delaying transfer of an appeal for months, etc.
No reasonable person can conclude Sundy has a remedy anywhere but in this Court.
“Not only is a biased decision maker constitutionally unacceptable, but
our system of law has always endeavored to prevent even the
probability of unfairness.” Withrow v. Larkin, 421 U.S. 35, 47 (1975)
(quoting In re Murchison, 349 U.S. 133, 136 (1955))
CONCLUSION
Petitioner Sundy has spent more than five years in Georgia courts fighting to
obtain a complete court record while judges and court officers conspire to remove
Sundy’s properly-filed papers from the record(s) of the court cases in which Sundy is a
party. Sundy initiated USDC No. 2:18-cv-0112-SCJ, in part, to obtain declaratory
relief regarding the constitutional violations and deprivations committed by court
officers in the state court.

However, the same due process irregularities and

violations occurred in the record of the U.S. District Court with docket items missing,
including a motion properly-filed by Sundy on 17 December 2018.

Moreover, the

constitutional protections which Sundy sought to vindicate were violated by the very
court from which Sundy sought protection, prejudicing Sundy’s efforts to enforce his
legal rights. With the Gainesville Division district court physically located directly
across the street from Hall County Superior Court and employees/court officers of
both courts fraternizing with regularity, and with irregularities appearing on the
federal record which directly mirrored the violations in Hall County Superior Court,
Sundy still doesn’t know if court officers collaborated or if they train each other.
13

Under circumstances where the integrity of the adjudicative processes of the
Georgia courts are suspect, Sundy is effectively excluded from the court and no
appeal at a later date can correct that prejudice. This Court has explained that "post
judgment appeals generally suffice to protect the rights of litigants..." Mohawk
Indus., Inc. v. Carpenter, 558 U.S. 100, 109 (2009). Such is not the case for Sundy
because the incomplete records cannot support Sundy’s issues on appeal.
Petitioner Sundy has been denied equal protection and deprived of access to
the court, contrary to the First and Fourteenth Amendments of the Constitution, by
court officers refusing to file properly submitted documents into a civil action and/or
removing and/or withholding properly submitted documents from a civil action.
Sundy has been denied the right of a complete record on appeal by clerks’ failures to
perform their duties despite OCGA § 9-6-22.

Sundy has been injured, continues to be

injured, and is without remedy in Georgia.
“...the City overlooks the fact that the loss of a procedural right "is itself
an injury" sufficient to provide standing "without any requirement of a
showing of further injury." Bertulli v. Independent Ass'n of Continental
Pilots, 242 F.3d 290, 295 (5th Cir. 2001). Additionally, "the right to
procedural due process is 'absolute' in the sense that it does not depend
upon the merits of a claimant's substantive assertions and [therefore]
the denial of procedural due process [is] actionable for nominal damages
without proof of actual injury." Carey v. Piphus, 435 U.S. 247, 266. 98
S.Ct. 1042, 55 L.Ed.2d 252 (1978).” Wessel v. City of Albuquerque, 299
F.3d 1186, 1193 (10th Cir. 2002)
Pro se Sundy’s attempt to maintain the status quo, i.e., obtain a complete court
record, is an uphill battle against court officers who have the power and opportunity
to manipulate the outcome of every case. The legally unsophisticated Sundy is placed
in the unconstitutional condition of having to acquiesce to the corrupt and incomplete

14

court record or abandon any meaningful appeal.

Regardless of how Sundy might

attempt to debate with the courts about missing documents, a challenged factual
issue based upon the record, Sundy is unable to combat the abuse of power by biased
court officials. If facts are missing from the record or in question, how can full and
fair consideration be given?

The standard of Mincey v. Head, 206 F.3d 1106, 1125

(11th Cir. 2000) - “For a claim to be fully and fairly considered by the state courts,
where there are facts in dispute, full and fair consideration requires consideration by
the fact-finding court...” - avails nothing in Georgia.
“...it is still the ultimate responsibility of the court to consider all
potential remedies if it finds that the ones the plaintiffs offer do not
suffice. It has always been Congress's intent that "[t]he court should
exercise its traditional equitable powers to fashion the relief so that it
completely remedies...” Southern Christian Leadership Conference v.
Sessions, 56 F.3d 1281 (11th Cir. 1995).
It is a manifest injustice that Sundy has no remedy to prohibit court officers
from tampering with the record of any of Sundy's cases, including removing Sundy’s
papers and withholding items from the docket, to deprive Sundy of Notice and equal
protection as well as the full and fair litigation of issues and claims. It is a manifest
injustice that Sundy has no remedy to prohibit court officers from delaying filing
and/or backdating or changing the stamp-filed date on documents.
It is a manifest injustice that Sundy remains in constructive custody of Georgia
courts with GASUP Clerk of Court Therese Barnes able to intentionally, and with
premeditation, falsify court records to prejudice Sundy’s claims and appeal(s). By
Judicial Notice, Clerk Barnes created a false motion for sanctions in S1901351 to

15

injure Sundy while denying Sundy due process of notice once she had filed the fake
motion in the record.
“The right of access to the courts, upon which Bertulli was premised, is
founded in the Due Process Clause and assures that no person will be
denied the opportunity to present to the judiciary allegations concerning
violations of fundamental constitutional rights.” Wolff v. McDonnell, 418
U.S. 539, 94 S.Ct. 2963, 41 L.Ed.2d 935 (1974)
Respondent Friendship Pavilion Acquisition Company LLC (“Friendship”) and
its officers and agents took a calculated risk in 2011 that it could successfully
perpetrate a scheme of prevention of performance and fraud upon Petitioner Sundy,
his brother, and their family-owned restaurant company. Friendship et al. knew that
what it was doing was deceitful, fraudulent and illegal, and could cost the Sundys’
their livelihood, but calculated that imposing obstacles upon the Sundys’ restaurant
of condemnation, road construction and the secret conveyance of its property frontage
- obstacles not contemplated within its contract with the Sundys-was a risk FPAC
was willing to take. When Friendship’s calculation proved wrong and the Sundys
also obtained documentary evidence of Friendship’s scheme, breaches of contract and
RICO activities, Friendship hired multiple attorneys and sought to avail itself of the
Sundys’ nonperformance.
Since then, for still unknown reasons, court officers geographically located in
the Northeastern Judicial Circuit of Georgia have demonstrated an actual interest in
the outcome of the original in rem proceeding, at one point adopting HCSC Plaintiff
Friendship’s MOTION TO LIFT LlS PENDENS in court officers’ mandamus response. For
five years, Friendship and HCSC court officers, including judges and clerks, have
given every appearance of conspiring to shield Friendship from the consequences of
16

Friendship’s own scheme and allow HSCS Plaintiff Friendship to prevail with
unclean hands.
Pro se Sundy is ignorant of the nuances of the law. Pro se Sundy, however
inarticulate, is a literalist who believes that the law is to be applied equally to every
one or the law is applied to no one. The improprieties in the conduct of judges and
clerks who abandon their roles as neutral arbiters and use their power to deliberately
sabotage a pro se litigant’s case, deprives Sundy of the constitutional right to due
process and mandates the reversal of the entirety of HCSC 2015CV1366.
Petitioner Sundy has a statutory and constitutional right to a complete record
of proceedings in "the courts below, as well as equal protection and consistent due
process without undue interference. Sundy is respectfully seeking that this Court
issue a writ of certiorari to the Supreme Court of Georgia to review the case below so
that Petitioner’s rights may be honored.

Such relief is warranted by the

extraordinary nature of this case.
Timely and respectfully submitted, 4 January 2021.

Tim Sundy

( J

227 Sandy Springs Place, Ste. D-465
Sandy Springs, GA 30328
404-409-5473

17

